No.
IN THE

SUPREME C OURT OF THE U NITED STATES
OCTOBER TERM,

2020

STEPHEN COMETA,
Petitioner,
V.

UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Supreme Court

Motion for Leave to Proceed In Forma Pauperis

The Petitioner, Stephen Cometa, asks for leave to file the enclosed Petition
for Writ of Certiorari to the United States Supreme Court without prepayment of
costs and to proceed informa pauperis in accordance with Supreme Court Rule 39,
and Title 18, U.S.C. § 3006A(d)(6). The filing of this petition is a continuation of
the representation of defendant under a Criminal Justice Act appointment of Fritz
Scheller, Esq., by the United States District Court for the Middle District of
Florida. In accordance with§ 3006A(d)(6), no affidavit as required by Supreme
Court Rule 3 9, need be filed.

WHEREFORE, Petitioner, Stephen Cometa, prays for leave to proceed in
forma pauperis.
Respectfully submitted this 30th day of Dec mber 2020.

RIJ'Z SCHELLER
Flot ida Bar No. 183113
Fritz Scheller, P .L.
200 East Robinson Street, Suite 1150
Orlando, Florida 32801
PH: (407) 792-1285
FAX: (407) 649-1657
Email: fscheller@jlusalaw.com
Counsel for Petitioner Stephen
Cometa

